September 2005
Report No. 05-039



Effectiveness of Supervisory Corrective
Actions




             AUDIT REPORT
                                                                                       Report No. 05-039
                                                                                        September 2005

                                 Effectiveness of Supervisory Corrective Actions
                                 Results of Audit

                                 The FDIC’s Division of Supervision and Consumer Protection (DSC) has
Background and                   established policies and procedures that provide detailed guidance
Purpose of Audit                 pertaining to initiating, monitoring, and terminating formal and informal
                                 actions. Specifically, sufficient controls are in place and operating
The Federal Deposit              effectively to ensure that supervisory corrective actions achieve their
Insurance Corporation            intended purposes before being terminated. From our review of 15
(FDIC) uses a number of          supervisory corrective actions terminated in 2004, we concluded that the
tools to address supervisory     institutions were in substantial compliance with the provisions of the actions
concerns related to the          and that the conditions at the institutions had improved sufficiently so that
safety and soundness of          the actions were no longer needed. We also found that DSC regional office
financial institutions and       files generally contained adequate justifications for terminating the actions.
their compliance with laws
and regulations. These           In conducting tests related to our audit objective, we found that DSC could
tools range from informal        improve the timeliness and completeness of data in the Formal and Informal
advice and written               Action Tracking system (FIAT). Specifically, FIAT information for 14 of
agreements to formal             the 15 actions we reviewed often was not entered into the system in a timely
actions that are legally         or complete manner. In addition, the system did not include formal
enforceable. Supervisory         enforcement actions that state regulators independently issued to FDIC-
corrective actions are           supervised institutions. As a result, DSC cannot fully rely on the FIAT data
tailored to each situation       and management reports for monitoring supervisory corrective actions.
and address the specific
problems at an institution.      Recommendation and Management Response

The objective of the audit       The report contains three recommendations intended to improve the
was to determine whether         timeliness and completeness of data in FIAT. FDIC management agreed
supervisory corrective           with the recommendations and is taking corrective actions.
actions taken against
FDIC-supervised                  Supervisory Corrective Actions Terminated During 2004
institutions achieved the         DSC Regional      Cease &       Memorandums of          Total
intended purposes before             and Area    Desist Orders     Understanding       Terminated
being terminated. The                 Offices                                            Actions
audit focused on the              Atlanta                2               15                17
FDIC’s use of Cease and           Boston                0                 7                 7
Desist orders and                 Chicago               21               32                53
Memorandums of                    Dallas                 3               15                18
Understanding – two of the        Kansas City            5               36                41
more commonly used                Memphis                3               27                30
supervisory corrective            New York               5                2                 7
actions.                          San Francisco          7               11                18
_____________________             Total                 46              145                191
__                               Source: Office of Inspector General’s review of FIAT data.
To view the full report, go to
www.fdicig.gov/2005reports.asp
                               TABLE OF CONTENTS
BACKGROUND                                                         1

RESULTS OF AUDIT                                                   2

FINDINGS AND RECOMMENDATIONS                                       3

FINDING A: PROCESS TO TERMINATE SUPERVISORY                         3
CORRECTIVE ACTIONS

FINDING B: FIAT DATA IN ViSION                                      4

      Data Stewardship Program                                     5
      Data Requirements Addressed in the FIAP Manual               5
      Review of FIAT Data in ViSION                                5

RECOMMENDATIONS                                                     7

CORPORATION COMMENTS AND OIG EVALUATION                            7

APPENDIX I: OBJECTIVE, SCOPE, AND METHODOLOGY                      8

APPENDIX II: INFORMAL AND FORMAL SUPERVISORY                       10
CORRECTIVE ACTIONS COMMONLY INITIATED BY THE FDIC

APPENDIX III: CORPORATION COMMENTS                                 11

APPENDIX IV: MANAGEMENT RESPONSE TO RECOMMENDATIONS                13

TABLES

Table 1:   C&Ds and MOUs Issued                                     2
Table 2:   Supervisory Corrective Actions Reviewed                  4
Table 3:   FIAT Data in ViSION                                      6
Table 4:   Supervisory Corrective Actions Terminated During 2004    8
Federal Deposit Insurance Corporation                                                                      Office of Audits
801 17th Street NW, Washington, DC 20434                                                      Office of Inspector General




DATE:                                      September 28, 2005

MEMORANDUM TO:                             Christopher J. Spoth, Acting Director
                                           Division of Supervision and Consumer Protection


FROM:                                      Russell A. Rau [Electronically produced version; original signed by Russell A. Rau]
                                           Assistant Inspector General for Audits

SUBJECT:                                   Effectiveness of Supervisory Corrective Actions
                                           (Report No. 05-039)


This report presents the results of our audit of the effectiveness of supervisory corrective actions
implemented by the Federal Deposit Insurance Corporation’s (FDIC) Division of Supervision and
Consumer Protection (DSC). The objective of the audit was to determine whether supervisory
corrective actions taken against FDIC-supervised institutions achieved the intended purposes before
being terminated. The audit focused on the FDIC’s use of Cease and Desist orders (C&Ds) and
Memorandums of Understanding (MOUs) – two of the more commonly used supervisory corrective
actions. Appendix I of this report discusses our objective, scope, and methodology in detail.


BACKGROUND

A cornerstone of a healthy deposit insurance system is the process used by regulators to identify
and, to the extent possible, remedy unsafe and unsound banking practices and noncompliance with
laws and regulations. The FDIC’s supervisory process attempts to identify problems and seek
solutions early enough to enable remedial action that will prevent serious deterioration in a bank’s
condition and reduce risk to the FDIC insurance funds. When problems are detected, examiners
must determine the severity along with the timing and form of needed corrective actions. The FDIC
uses a number of tools to address supervisory concerns related to the safety and soundness of
financial institutions and their compliance with laws and regulations. These tools range from
informal advice and written agreements to formal actions that are legally enforceable. The contents
of supervisory corrective actions are tailored to each situation and address the specific problems at a
particular institution. Appendix II provides a description of informal and formal supervisory
corrective actions commonly initiated by the FDIC.

Informal and formal supervisory corrective actions address unsafe and unsound practices and
conditions and violations of law that could result in the risk of loss to an insured financial
institution. DSC’s Risk Management Manual of Examination Policies notes that either an
informal or formal action will be taken on banks with composite safety and soundness ratings of
3, 4, or 5 unless specific circumstances argue strongly to the contrary. Additionally, the DSC’s
Formal and Informal Actions Procedures Manual (FIAP Manual) details steps examiners should
take when contemplating corrective actions against banks. After a supervisory action is
implemented, DSC regional officials monitor the institution’s compliance with the action,
usually through progress reports submitted by the institution. When DSC has determined that an
institution is in compliance or substantial compliance with the provisions of the action and/or the
institution’s condition has improved sufficiently, the FDIC may terminate the action, or when the
provisions of a supervisory corrective action have been partially met, a new formal or informal
action may be issued.

Table 1 identifies the number of formal C&Ds and informal MOUs that the FDIC issued in 2003
and 2004 to address safety and soundness, compliance, and other matters at FDIC-supervised
institutions.

Table 1: C&Ds and MOUs Issued
                       Number of FDIC-
       Year              Supervised            Number of C&Ds         Number of MOUs                Total
                         Institutions
                         at year-end
        2003                5,340                       38                      183                   221
        2004                5,272                       38                      186                   224
       Total                                            76                      369                   445
Source: Information obtained from the FDIC’s Virtual Supervisory Information on the Net system (ViSION).


DSC monitors supervisory corrective actions issued against FDIC-supervised banks through the
Formal and Informal Action Tracking (FIAT) module within ViSION. FIAT includes information
related to the tasks of case managers, review examiners, and other staff involved in processing and
monitoring supervisory actions. Furthermore, FIAT generates various reports that the FDIC’s
headquarters, regional, and field offices use in tracking the progress of supervisory actions.


RESULTS OF AUDIT

DSC has established policies and procedures that provide detailed guidance on initiating,
monitoring, and terminating formal and informal actions. Specifically, controls are in place and
operating effectively to ensure that supervisory corrective actions achieve their intended purposes
before being terminated. From our review of 15 supervisory corrective actions terminated in 2004,
we concluded that the institutions were in substantial compliance with the provisions of the actions
and that the conditions at the institutions had improved sufficiently so that the actions were no
longer needed. We also found that DSC regional office files generally contained adequate
justifications for terminating the actions (see Finding A).

In conducting tests related to our audit objective, we found that DSC could improve the timeliness
and completeness of data in FIAT. Specifically, FIAT data for 14 of the 15 actions we reviewed
was often not input in a timely manner, and certain data fields were incomplete. In addition, the
system did not include formal enforcement actions that state regulators had independently issued to


                                                       2
FDIC-supervised institutions. As a result, DSC cannot fully rely on the timeliness or completeness
of FIAT data and management reports that are used to manage and monitor DSC’s corrective action
process (see Finding B).


FINDINGS AND RECOMMENDATIONS

FINDING A: PROCESS TO TERMINATE SUPERVISORY CORRECTIVE
           ACTIONS

DSC properly monitored and subsequently terminated supervisory corrective actions in accordance
with established procedures. We reviewed 224 provisions for the 15 supervisory corrective actions
in our sample and found that DSC had monitored the progress of the institutions to ensure
compliance with the provisions. Specifically, for the 15 actions reviewed, DSC had received and
reviewed progress reports from the institutions. In addition, DSC files contained evidence of
ongoing communications with the institutions and DSC’s monitoring of institution compliance with
the provisions of the actions. We also determined that the institutions had substantially complied
with the provisions before all 15 actions were terminated.

FDIC’s FIAP Manual states that the FDIC may terminate C&Ds or MOUs when any of the
following conditions exist:

   •   The institution is in significant or material compliance with the provisions of the action.
   •   The institution’s condition has improved sufficiently so that the action is no longer needed.
   •   The institution has partially met the provisions of the action, and a new action has been
       issued to address outstanding provisions or new areas of concern.
   •   The institution merged or is closed.
   •   Deterioration or lack of compliance leads to issuance of a new or revised action.

In addition to the institutions’ achieving substantial compliance with all 15 corrective actions, 14 of
the 15 actions were terminated, in part, because the examination composite ratings at the institutions
had improved. Details are shown in Table 2 on the next page. Also, 6 of the 15 terminated actions
were replaced with a less severe action – either a bank board resolution or an MOU.




                                                   3
    Table 2: Supervisory Corrective Actions Reviewed

                                                                              Examination        Examination
                                                                             Rating at Time     Rating at Time
                             Type of         Type of         Number of        Action Was         Action Was
        Institution          Action        Examinationa      Provisions         Initiated         Rescinded
              1               C&D              S&S               16              344422/4          232312/2
              2               MOU              S&S                9              223423/3          122312/2
              3               MOU            Compliance           5                 3                  2
              4               MOU              S&S               16              333322/3          232222/2
              5               C&D              S&S                19             554533/5          333322/3
              6               MOU            Compliance           7                 4                  2
              7               MOU              S&S               12              233322/3          232222/2
              8               MOU              S&S               27              234212/3          123212/2
              9               MOU              S&S               27              233323/3          233322/3
             10               C&D              S&S                24             455444/4          223323/3
             11               MOU            Compliance           6                 3                  2
             12               MOU               IT               11               2323/3            2323/2
             13               MOU               IT                8               4423/3            2223/2
             14               C&D              S&S                17             555544/5          443523/4b
             15               C&D              S&S                20             444544/4          333333/3
           Total                                                 224
    Source: Office of Inspector General (OIG) review of FIAT data and Reports of Examination.
    a
      Safety and Soundness (S&S), Compliance, or Information Technology (IT) examinations.
    b
      The institution merged with another institution in March 2004.


    We also noted that actions had been terminated only after approvals by appropriate senior DSC
    regional officials. Based on our review of supervisory corrective actions issued to these 15
    institutions, we concluded that the process for terminating supervisory corrective actions is
    operating as intended; therefore, we are not making any recommendations in this area.


    FINDING B: FIAT DATA IN ViSION

    While evaluating the effectiveness of DSC’s supervisory corrective actions, we found that DSC had
    not adequately implemented controls to efficiently and effectively manage FIAT data related to
    those actions. Specifically, DSC had not ensured that FIAT data in ViSION1 was updated in a
    timely and complete manner. DSC had not entered 4 of the 15 corrective actions we reviewed into
    FIAT until 4 or more months after their effective dates, and the records were incomplete for 14 of
    the 15 actions. In addition, DSC did not use FIAT to track formal enforcement actions that were
    independently issued by state regulators to FDIC-supervised institutions. As a result, the FDIC
    cannot fully rely on FIAT data and management reports for monitoring all supervisory corrective
    actions.



1
    FIAT was converted to ViSION in February 2005 and serves as a central source of supervisory corrective action
    information.


                                                            4
Data Stewardship Program

At the corporate level, the FDIC has recognized that its success is dependent on accurate, reliable,
and consistent data. To that end, in September 2001, the FDIC revised its Data Stewardship
Program (Circular 1301.3) to establish controls related to business accountability and responsibility
for managing and sharing corporate data. The objectives of the revised program included:

   •   managing data as a valuable corporate asset;
   •   ensuring the usefulness, accuracy, timeliness, and accessibility of corporate data; and
   •   facilitating effective, efficient management of large and growing volumes of data.

Under the Data Stewardship Program, division and office directors are responsible for designating
subject matter experts (SMEs) to address data issues that have corporate-wide implications and to
monitor performance to ensure that data stewardship responsibilities are properly addressed. The
role of the SMEs includes preserving the accuracy of data entered into an application system or data
base. SMEs are also responsible for preparing written directions and instructions related to FIAT
features.

Data Requirements Addressed in the FIAP Manual

The FIAP Manual states that when a formal or informal action is contemplated or initiated, a record
of the action must be created in FIAT. Case managers and regional management in DSC’s regional
offices are responsible for ensuring that FIAT data in ViSION is accurate, current, and complete.
Case managers are required to create FIAT records in the early stages of processing actions and are
responsible for ensuring that tracking records, such as when progress reports on the actions are due,
received, and reviewed, are created and updated in FIAT in a timely manner. Initiating FIAT
records in the early stages of processing provides FIAT users with a complete summary of formal
and informal actions in progress.

Review of FIAT Data in ViSION

Our review of FIAT data in ViSION for the 15 sampled supervisory corrective actions indicated
that DSC case managers had not consistently entered actions in FIAT prior to their effective dates
and had not entered all required information. Table 3 summarizes the FIAT data for the 15 C&Ds
or MOUs we reviewed that had been terminated during 2004.




                                                  5
Table 3: FIAT Data in ViSION
                                   Number of
                                   Days from
                                                     Corrective
                                    Effective
                                                       Action
                                     Date of                             Progress
                                                   Provisions Not                               Other Data
            Institutiona            Action to                           Reports Not
                                                     Input into                             Not Input into FIAT
                                   Date Action                        Input into FIAT
                                                       FIAT
                                   Was Input
                                   into FIATb

                 1                     (111)                                                         X
                 2                      220               X                   X                      X
                 3                      (37)                                                         X
                 4                      (50)              X                   X
                 5                        9                                   X                      X
                 6                      (18)
                 7                      255                                   X                      X
                 8                       18                                   X                      X
                 9                      125               X                   X                      X
                10                      (83)              X                                          X
                11                        4               X                                          X
                12                       35                                                          X
                13                      131                                   X                      X
                14                      (71)                                                         X
                15                      (86)                                                         X
Source: FIAT data from ViSION.
a
  We will provide the names of the institutions to DSC under separate cover.
b
  Numbers shown in parentheses are negative and indicate that DSC had entered the data in the Formal and Informal
Action Tracking (FIAT) system prior to the effective date of the action as recommended in DSC policies.


DSC case managers had entered 7 of the 15 supervisory corrective actions into FIAT before the
actions became effective. Also, the corrective action provisions were documented in the system for
10 of the 15 actions. However, 4 of the 15 supervisory corrective actions were not entered into
FIAT until 125-255 days after the effective dates of the actions. In addition, DSC did not document
the progress reports in FIAT for seven of the actions. Finally, for 13 of the 15 actions reviewed,
FIAT did not contain other required data, including the dates the institution complied with each
provision of the corrective action and the dates DSC received and reviewed the progress reports.

DSC’s Internal Review and Control Section identified similar problems during its 2003 and 2004
visits to the FDIC’s Atlanta and Dallas Regional Offices.2 In response, the Dallas Regional Director
issued an instructional memorandum on April 1, 2005 regarding the use of FIAT. The
memorandum reiterated the case managers’ responsibilities for ensuring that FIAT records in
ViSION are created and updated in a timely manner. Based on the problems we identified in FIAT
records during our audit, DSC needs to emphasize the responsibilities at all the regional offices.

In addition, while reviewing the supervisory corrective actions for the Atlanta region, we identified
one institution with a 4 rating that was operating under a safety and soundness C&D that had been

2
    The Dallas Region includes the Memphis Area Office.


                                                          6
issued by a state banking agency. The FDIC concurred with the C&D, but did not jointly sign the
C&D with the state. FIAT contained no record that the institution was operating under a formal
state enforcement action. Although DSC guidance requires that a FIAT record be created for
informal state actions, the FIAP Manual does not address whether a FIAT record should be created
for a formal state action that the FDIC has not joined. DSC officials stated that because of the lack
of guidance, some case managers were confused about when to create such records. According to
DSC officials, the FIAP Manual is being revised to address this issue and will clarify data entry
requirements for state regulatory actions.

DSC uses FIAT reports to manage and monitor DSC’s enforcement actions to ensure that timely
and appropriate actions are taken to address unsafe or unsound practices and conditions or legal
violations. Further, other FDIC divisions and offices use FIAT data to meet the needs of Freedom
of Information Act requests, legal research, and general studies. Finally, FDIC management uses
FIAT data in determining staffing needs and in evaluating management and staff performance. As a
result of weaknesses in controls over FIAT data in ViSION, the FDIC cannot fully rely on the
information for monitoring all supervisory corrective actions in process or as a source for reliable
management reports.


RECOMMENDATIONS

We recommend that the Director, DSC:

   (1) Require case managers to enter all supervisory actions, including those issued by state
       banking agencies, into ViSION on or before an action’s effective date.

   (2) Reinforce DSC’s implementation of the Data Stewardship Program and other applicable
       guidance related to ensuring the accuracy and reliability of FIAT data in ViSION.

   (3) Include instructions in the revised FIAP Manual for creating a FIAT record for formal state
       actions that the FDIC has not joined.


CORPORATION COMMENTS AND OIG EVALUATION

On September 19, 2005, the Acting Director, DSC, provided a written response to the draft report.
The response is presented, in its entirety, as Appendix III of this report. DSC agreed with the
recommendations and responded that supervisory corrective actions will be entered into FIAT when
received by the Regional Director or designee. Also, DSC met with the FDIC’s Legal Division in
September 2005 to address the timeliness and accuracy of FIAT records. Further, through its
regional office review process, DSC will conduct internal testing and evaluations pertaining to
accurate and timely reporting in FIAT. Finally, DSC agreed to revise the FIAP Manual to address
all three recommendations. DSC’s planned actions are responsive to our recommendations.
Accordingly, the recommendations are resolved but will remain undispositioned and open until we
have determined the agreed-to corrective actions have been completed and are effective.


                                                  7
                                                                                    APPENDIX I




                         OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of the audit was to determine whether supervisory corrective actions achieve intended
purposes before being terminated. The audit focused primarily on the FDIC’s use of MOUs and
C&Ds, two of the more commonly used supervisory corrective actions. The audit field work was
conducted from February through August 2005 in accordance with generally accepted government
auditing standards.

To accomplish our objective, we:

   •    reviewed DSC’s FIAP Manual, Risk Management Manual of Examination Policies, and
        Case Manager Procedures Manual, and applicable Regional Director Memorandums;
   •    reviewed 2001-2004 Reports of Examination and Summary Analysis of Examination Report
        comments prepared by the FDIC and state banking agencies for the 15 banks in our sample;
   •    reviewed and analyzed progress reports submitted by banks from February 2002 to
        September 2004 that addressed provisions in supervisory actions;
   •    reviewed FIAT data in ViSION;
   •    reviewed and analyzed correspondence and other files maintained at the Atlanta Regional
        Office and Memphis Area Office; and
   •    interviewed DSC officials in Atlanta, Memphis, and Washington, D.C.

We also determined the total number of MOUs and C&Ds that DSC had terminated during 2004,
which are shown in Table 4.

Table 4: Supervisory Corrective Actions Terminated During 2004
DSC Regional and              C&Ds                  MOUs                      Total Terminated
Area Offices                                                                       Actions
Atlanta                          2                   15                              17
Boston                          0                     7                               7
Chicago                         21                   32                              53
Dallas                           3                   15                              18
Kansas City                      5                   36                              41
Memphis                          3                   27                              30
New York                         5                    2                               7
San Francisco                    7                   11                              18
Total                           46                   145                             191
Source: OIG’s review of FIAT data in ViSION.




                                                 8
                                                                                      APPENDIX I

From this universe, we randomly selected 10 MOUs and 5 C&Ds that had been terminated by the
Atlanta Regional Office and the Memphis Area Office during 2004. To determine whether the
actions had achieved the intended purposes before being terminated, we reviewed all 224 provisions
of the 15 actions. In addition, we reviewed examination reports and other pertinent data to:
(1) identify each bank’s specific problems, (2) identify the supervisory corrective actions taken and
whether they addressed the problems, and (3) determine whether the banks had corrected the
problems before the actions were terminated.

Government Performance and Results Act, Reliance on Computer-based Data, Internal
Control, Compliance with Laws and Regulations, and Fraud and Illegal Acts

The Government Performance and Results Act of 1993 directs Executive Branch agencies to
develop a customer-focused strategic plan, align agency programs and activities with concrete
missions and goals, manage and measure results to justify appropriations and authorizations, and
design budgets that reflect strategic missions. In this audit, we reviewed the FDIC’s 2005 Annual
Performance Plan and the FDIC’s Strategic Plans for 2005-2010. The FDIC has annual
performance goals that address the need to take prompt supervisory corrective actions for problem
banks and that address the need to monitor those banks’ compliance with formal and informal
supervisory corrective actions.

We conducted tests to determine the reliability of computer-based data obtained from the FDIC’s
ViSION system. Based on the review of information in ViSION, the FIAT data was not up-to-date
or complete (see Finding B in this report).

We assessed relevant control activities by examining DSC policies and procedures as presented in
the FDIC’s Rules and Regulations, FDIC’s Statements of Policy, DSC’s Risk Management Manual
of Examination Policies, Case Manager Procedures Manual, FIAP Manual, and Regional Directors
Memoranda.

Regarding compliance with laws and regulations, we gained an understanding of aspects of the
Federal Deposit Insurance (FDI) Act and the requirements of Part 325 of the FDIC’s Rules and
Regulations. Also, we reviewed section 8 of the FDI Act pertaining to formal enforcement actions.
Our audit program also included steps for providing reasonable assurance of detecting fraud or
illegal acts.




                                                  9
                                                                             APPENDIX II


     INFORMAL AND FORMAL SUPERVISORY CORRECTIVE ACTIONS
               COMMONLY INITIATED BY THE FDIC


   Type of Action                                 Description of Action
                        Informal actions are voluntary commitments made by an insured
                        financial institution’s board of directors. Such actions are designed to
                        correct noted safety and soundness deficiencies or ensure compliance
   Informal Action      with federal and state banking laws. Informal actions are not legally
                        enforceable and are undisclosed to the public. Informal action is
                        generally appropriate for institutions that receive a composite rating of
                        3 for safety and soundness.

                        A bank-generated document designed to address one or more specific
Bank Board Resolution   concerns identified by examiners. It is an informal action and is not a
                        binding legal document.

                        A bilateral agreement seeking informal corrective action from
                        institutions considered to have supervisory concerns but which have
       MOU
                        not deteriorated to the point at which they warrant formal action. An
                        MOU is not a binding legal document.

                        The purpose of a formal action is to correct noted safety and
                        soundness deficiencies, ensure compliance with federal and state
                        banking laws, and/or enforce removal proceedings. Formal actions are
                        legally enforceable and available to the public after issuance. A
                        formal action is generally initiated against an institution with a
   Formal Action        composite rating of 4 or 5 for safety and soundness. The FDIC can
                        issue the following formal actions: termination of federal deposit
                        insurance; C&D orders; removal, prohibition, and suspension actions;
                        and civil money penalties. In addition, section 38 of the FDI Act
                        authorizes the FDIC to issue prompt corrective action directives to
                        undercapitalized institutions.

                        A formal bilateral agreement signed by the bank’s board of directors
                        and regulatory supervisor. Under the agreement, the supervisory
                        agency may order an insured bank and its directors, officers,
     C&D Order          employees, and agents to cease and desist from certain practices and
                        violations and take affirmative action to correct the resulting
                        conditions. The failure of a bank to comply with a C&D order can be
                        the basis for subsequent legal actions.




                                        10
                       Appendix III



CORPORATION COMMENTS
     APPENDIX III




12
                                                                                                                                           APPENDIX IV

                                           MANAGEMENT RESPONSE TO RECOMMENDATIONS
This table presents the management response on the recommendations in our report and the status of the recommendations as of the
date of report issuance.
                                                                                                                                                      Open
                                                                                                                       a                    b
 Rec.                                                                         Expected        Monetary       Resolved:      Dispositioned:             or
Number          Corrective Action: Taken or Planned/Status                 Completion Date    Benefits       Yes or No        Yes or No              Closedc
               DSC will revise the FIAP Manual to address                   March 31, 2006      N/A             Yes              No                   Open
       1       creating a FIAT record for all supervisory
               corrective actions, including those taken
               independently by the State Authority.
               DSC will revise the FIAP Manual to ensure the               March 31, 2006        N/A            Yes                No                 Open
       2       accuracy and reliability of FIAT data, and DSC’s
               internal review program will include reviews of
               data stewardship.
               Instructions will be included in the revised FIAP           March 31, 2006        N/A            Yes                No                 Open
       3       Manual for creation of FIAT records for formal
               state actions.
a
    Resolved – (1) Management concurs with the recommendation, and the planned corrective action is consistent with the recommendation.
              (2) Management does not concur with the recommendation, but planned alternative action is acceptable to the OIG.
              (3) Management agrees to the OIG monetary benefits, or a different amount, or no ($0) amount. Monetary benefits are considered resolved as long
                    as management provides an amount.
b
  Dispositioned – The agreed-upon corrective action must be implemented, determined to be effective, and the actual amounts of monetary benefits achieved
through implementation identified. The OIG is responsible for determining whether the documentation provided by management is adequate to disposition the
recommendation.
c
    Once the OIG dispositions the recommendation, it can then be closed.




                                                                                 13
